20-6443
UNITED STATES COURTS OF APPEALS
FOR THE SECOND CIRCUIT

SCOTT MYERS,
Plaintiff-Appellant,
-against CHARLES BUCCA, GREG SEELEY,
PATROLMAN ROWELL, ALAN FRISBEE,
DONNA BAECKMAN, MICHAEL SPITZ,
TERRY WILHELM, BOBBY HAINES,
MUNICIPALITY OF GREENE COUNTY.
Defendant-Appellees-

PETITION FOR REHEARING
UNITED STATES SUPREME COURT

Scott Myers, prose
Scott Myers
39 West Bridge Street
Catskill, NY 12414
(518) 291-8169
scottmyers@mac.com

P. 5

Ertiteb 'tate

upremt Court

SCOTT MYERS,
Plaintiff-Appellant,
-against CHARLES BUCCA, GREG SEELEY, PATROLMAN
ROWELL, ALAN FRISBEE, DONNA BAECKMAN,
69
MICHAEL SPITZ, TERRY WILHELM,
BOBBY HAINES, MUNICIPALITY OF GREENE
COUNTY,
Defendant-Appellees.

PETITION FOR
REHEARING
20-6443
From 2nd Cir. C.O.A. 19-

ON PETITION FOR REHEARING
The Movant, Scott Myers, does petition for rehearing of this Court's
February 22, 2021 denial for a writ of certiorari.
Such good cause includes two arguments not previously developed"
"whether the denial of relevant U.S. Supreme Court case law as
jury instruction prevented justice
Whether the defendants can prosecute me without the victim's
permission or cooperation (my wife)
I swear and affirm that this petition for
and is not for delay (no benefit comes f

earing is in good faith
lay).

You

Scott Myers
39 West Bridge St.
Catskill, NY 12414
(518) 291-8169
scottmyers@mac.com
I swear under penalty of perjury that the foregoing is true
and correct, February 23, 2021, 28 U.S. Code ยง 1746

P. 6

NEW QUESTIONS PRESENTED

Does the denial to include, as jury instruction, relevant
and controlling U.S. Supreme Court case law,' illegally
prevent justice and violate the right to a fair trial,
etc., the U.S.C. decisions allow violating an Order of
Protection for reasons such as imminent harm, etc.,

Can a county court prosecute for violating an order of
protection (which is how the criminal cases were brought)
without the participation, approval, or cooperation of the
person named as "victim." Clare did not cooperate with the
prosecutors.
Clare did not cooperate with prosecutors at any time in
any of. these processes. The defendants prosecuted.

3 These controlling U.S. Supreme Court decisions were provided by motion
for jury instruction, but I was not allowed to tell the jury of these
cases: "Willfully" has been defined by the Supreme Court, in United States
v. Murdock, supra, as follows: "The word often denotes an act which is
intentional, or knowing, or voluntary, as distinguished from accidental.
But when used in a criminal statute it generally means [1] an act done
with a bad purpose (Felton v. United States, 96 U.S. 699, 24 L. Ed. 875;
Potter v. United States 155 U.S. 438, 15 S. Ct. 144, 39 L. Ed. 214; Spurr
v. United States, 174 U.S. 728, 19 S. Ct. 812, 43 L. Ed. 1150); [2]
without justifiable excuse (Felton v. United States, supra; Williams v.
People, 26 Colo. 272, 57 P. 701; People v. Jewell, 138 Mich. 620, 101 N.W.
835; St. Louis, I.M. & S. Ry. Co. v. Batesville & W. Tel. Co., 80 Ark.
499, 97 S.W. 660; Clay v. State, 52 Tex'.Cr.R. 555, 107 S.W. 1129); [3]
stubbornly, obstinately, perversely ( V\/ales v. Miner, 89,1nd. 118, 127;
Lynch v. Commonwealth, 131 Va. 762, 109 S.E. 427; Claus v. Chicago Great
W. Ry. Co., 136 Iowa 7, 111 N.W. 15; State v. Harwell, 129 N.C. 550, 40
S.E. 48). [4] The word is also employed to characterize a thing done
without ground for - believing it is lawful. Roby v. Newton, 121 Ga.
.679, 49 S.E. 694, 68 L.R.A. 601), [5] or conduct marked by careless
disregard whether-or - not one has the right so to act (United States v.
Philadelphia & R. Ry. Co. (D.C.) 223 F. 207, 210; State v. Sayre, 12.9
Iowa 122, 105 N.W. 387, 3 L.R.A., N.S., 455, 113 Am.St.Rep. 452; State v.
Morgan, 136 N.C. 628, 48 S.E. 670."

P. 7

This represents pure hegemony.

Notably, A.D.A. Ann Marie Rabin and Probation Officer
Donna Baeckman forged the victim statement ascribed to
Clare.

NARRATIVE

On September 11, 2001, two large planes full of fuel and
passengers exploded inside the World Trade Towers a block from
my home. My family has lived in a rent-controlled penthouse
at 12 John Street since 1982. At the time, my wife was on bed
rest in her 7th month of pregnancy. Clare is of Middle Eastern
heritage.

When we finally abandoned the home and neighborhood, we
moved to a small country home in Tannersville, where Clare
spent most of her summers.

We were almost immediately attacked by local law
enforcement. The first event was from taking our daughter to
the local hardware store. I was arrested for leaving her in
the car (which was 10' away and always within sight).

P. 8

The Town of Hunter Hon. William Simon eventually
dismissed the case, but the emotional damage to Clare caused
her to breakdown. At the urging of her mother and sisters,
she hired counsel and sued for divorce.

Her counsel, Rose Ann Branda, was then the President of
the Bar in Brooklyn. Clare's retainer contract gave "sole
discretion" to Branda, who was eventually paid $50,000.

The judge, Eric Prus, saw us as his first contested
case. Prus ran unopposed on both party tickets. He was
nominated by the Brooklyn Bar.

The seasoned attorney Branda began with a temporary
order of protection ("t0P"), which the family court-approved
and Prus renewed.

After granting the divorce, Prus jailed me in The Tombs
for six months for complaining that he was aiding terrorism
and avoiding legal protections such as the assignment of
counsel.

At no time was I represented by counsel. My formal
motions for appointment of counsel were denied.

P. 9

The tOP was used by Greene County to persistently
threaten and harass my family and me preventing the necessary
safety we needed after 9/11.

Charles Bucca grew up in Tannersville and was the
prosecuting Assistant District Attorney. Bucca and Bucca were
also the realtor/attorney for our home in Tannersville.

On February 14, 2010, Greene County Deputy Rowell
arrested me in Tannersville. A.D.A. Bucca prosecuted.
Although charged with refusing to take a breath test, the
April 19, 2012 trial in Athens proved that Rowell was not
licensed to operate his equipment, that he did not do field
sobriety tests, and that he made up a false probable cause.
Hon. Constance Pazen was convicted without any evidence of
alcohol or unsafe driving. I appealed on April 22, 2014, Hon.
Richard Koweek reversed Pazen. The record on appeal showed
that Pazen used a script that pre-convicted: "We now find the
defendant

guilty of

Meanwhile, the defendants prosecuted county indictments
11-100 and 13-163. They did not need Clare's permission. She
did not cooperate with them. Clare did appear at the jury
trial for 13-163, but as my witness.

P. 10

Suspecting a forced conclusion, I declined to voir dire
the jury for 13-163. The trial judge, Hon. Richard Koweek
denied my motions for jury instruction. I asked to include
significant case law that allowed violating orders of
protection where danger existed, etc.

The pre-sentencing report ("P.S.I.") prepared by
defendant Baeckman, supervised by defendants Frisbee and
Lubera, can only be described as evil.

Generally, sentencing allows the victim to speak. But
at sentencing, Baeckman read a statement that Clare did not
write.4 The sentencing statement was not signed.

Further, the trial record shows that Clare was not a
witness at the Grand Juries. In short, the county prosecuted
without her cooperation.

REASONS FOR GRANTING THE PETITION

The defendants improperly forced jail and prison on me
and took away my family. They prayed on our vulnerability

15-cv-00553-DNH-ATB Document 64-4

P. 11

after 9/11.

I've certainly done my part defending these mindnumbing false charges. I removed the New York State
Matrimonial Chief Judge Jacqueline Silbermann and her
department (referencing their own report's conclusions). I
demoted Federal Southern District Chief Judge Kimba Wood. I
removed Greene County Sheriff Richard Hussey, Greene County
Sheriff Greg Seeley, and Jail Superintendent Michael Spitz.

I provoked the Alternatives To Incarceration ("A.T.I.')
committee, which met weekly 20 times.

I forced our jail to close on April 17, 2018, resulting
from FOILing 5 years of correspondence and reinforced by
SCOC's report naming Greene County a worst offender.5

To recover my family from terrorism and the effects of
these defendants, it's necessary to grant the petition and
remand to the district court for trial on an award.

No other solution exists. I do this work because I

5

https://scoc.ny.gov/pdfdocs/Problematic-Jails-Report-2-2018.pdf

P. 12

